      Department of Homeland Security




            U.S. Citizenship and Immigration 

              Services' Laptop Safeguards 

                  Need Improvements





OIG-12-83                                        May 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                       May 4, 2012

                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report addresses the strengths and weaknesses of the U.S. Citizenship and
Immigration Services program to safeguard its laptops. This report is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


     USCIS Needs To Improve Its Laptop Inventory Management Process ........................3

     Recommendations..........................................................................................................5

     Management Comments and OIG Analysis ..................................................................5


     USCIS Needs To Improve Its Laptop Configuration Management Process .................6

     Recommendations..........................................................................................................9

     Management Comments and OIG Analysis ..................................................................9


Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................11

     Appendix B:           Management Comments to the Draft Report .......................................13

     Appendix C:           Statistical Analysis of USCIS Laptops ................................................16

     Appendix D:           Major Contributors to this Report........................................................17

     Appendix E:           Report Distribution ..............................................................................18


Abbreviations
     CIO                                    Chief Information Officer

     DHS                                    Department of Homeland Security

     Directive 4300A                        DHS Sensitive Systems Policy Directive 4300A

     OIG                                    Office of Inspector General

     OIT                                    Office of Information Technology

     SAMS                                   Sunflower Asset Management System

     WSUS                                   Windows Server Update Services

     USCIS                                  U.S. Citizenship and Immigration Services

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    We conducted an audit of laptop security at U.S. Citizenship and
                    Immigration Services (USCIS). Our audit objective was to
                    determine whether USCIS has implemented an effective program
                    to safeguard its laptop computers and the information they contain.

                    We reviewed inventory information and performed onsite
                    inspections in USCIS offices in Washington, DC, and in a
                    contractor’s New Jersey shipping facility. We also interviewed
                    departmental staff and examined the operating systems and
                    encryption software on a statistically valid, random sample of
                    laptops.

                    USCIS’ laptop controls did not sufficiently safeguard its laptops
                    from loss or theft and did not protect the data on the laptops from
                    disclosure. Specifically, USCIS did not have an accurate and
                    complete inventory of its laptops, nor were inventory data reported
                    accurately and consistently in electronic databases. Additionally,
                    many laptops were not assigned to specific users. USCIS also did
                    not provide adequate physical security for its laptops. Finally, not
                    all of USCIS’ laptops were using the latest encryption software or
                    operating systems and associated service packs.

                    We are recommending that USCIS take steps to improve its laptop
                    inventory and configuration management processes. Specifically,
                    USCIS property custodians should enter laptop data consistently
                    into its property management system, and record laptops provided
                    to contractors as government-furnished equipment. Additionally,
                    we are recommending that USCIS ensure that it has installed the
                    latest operating systems and encryption software on its laptops.
                    Our last recommendation is that USCIS develop procedures to
                    ensure that users’ laptops are connected to its network on a
                    monthly basis so that software updates may be applied.




        U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                           Page 1
Background
                  USCIS has more than 18,000 employees and contractors working
                  at 250 offices around the world. It uses laptop computers to help
                  fulfill its mission of overseeing lawful immigration to the United
                  States. Additionally, USCIS contractors are issued laptops as
                  government-furnished equipment to access USCIS systems.

                  The mobility of laptops increases workforce productivity.
                  However, this same mobility increases the risk of theft and
                  unauthorized data disclosure. The increased risk of theft of laptop
                  computers is associated with both cost and security. For example,
                  replacing the hardware and restoring the information is costly.
                  Additionally, when laptops are stolen, there is a security risk of
                  data disclosure.

                  A USCIS property custodian takes possession of each incoming
                  laptop and enters its information into the Department of Homeland
                  Security’s (DHS) Sunflower Asset Management System (SAMS),
                  which USCIS uses to track and maintain its inventory electronically.
                  The property custodian, using SAMS, then assigns the laptop to a
                  USCIS employee or contractor. A USCIS Desktop Server
                  Management employee customizes the laptop for that specific
                  location, including manually entering the computer name into the
                  laptop’s system properties. This internal computer name includes
                  the location and barcode number. As of October 20, 2011, USCIS
                  had 6,659 laptops recorded in SAMS.

                  USCIS has additional processes to safeguard its laptops. For
                  example, USCIS performs an annual wall-to-wall, floor-to-ceiling
                  inventory of its assets, including laptops, to verify the accuracy of
                  data in SAMS. USCIS also uses configuration management
                  software, Windows Server Update Services (WSUS), to provide
                  laptops with authorized Microsoft systems and software updates.

                  USCIS follows DHS policy for safeguarding laptops, found in
                  DHS Sensitive Systems Policy Directive 4300A, Version 9.0,
                  October 11, 2011 (Directive 4300A). Directive 4300A outlines
                  policies for operational, technical, and management controls
                  necessary to ensure confidentiality, integrity, availability,
                  authenticity, and nonrepudiation in DHS’ information technology
                  infrastructure and operations.




      U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                         Page 2
Results of Audit
     USCIS Needs To Improve Its Laptop Inventory Management
     Process
           USCIS did not have an accurate inventory of its laptops. Specifically,
           property custodians did not consistently enter laptop data into the property
           management system, and data in different systems did not always agree.
           Furthermore, not all laptops were assigned to specific users, and USCIS
           did not adequately track which laptops were provided to contractors.
           Finally, USCIS did not enhance physical security controls by providing
           cables and locks for laptops. These deficiencies increased the risk of loss
           or theft of USCIS laptops.

                   Inventory Is Inaccurate and Needs Updating

                   USCIS uses SAMS to maintain its inventory of assets such as
                   laptops. However, USCIS staff did not always adhere to published
                   guidance when entering laptop information into SAMS, which led
                   to inconsistent and unreliable information in the system. Without
                   reliable information in SAMS, USCIS cannot locate all of its
                   laptops, increasing the risk that they could be lost or stolen.

                   The inconsistent laptop data entered in SAMS made it more
                   difficult to determine a laptop’s user and location. USCIS property
                   custodians sometimes entered the user’s name in other data fields,
                   such as the “Comment” field. During our site visit to one
                   Washington, DC, facility, USCIS staff were not able to physically
                   locate all the laptops that were listed in SAMS as being in that
                   facility. For several of these laptops, the SAMS user name was
                   “Unassigned.”

                   Additionally, USCIS was unable to provide us with the number of
                   laptops that had been provided initially to contractors as
                   government-furnished equipment. Specifically, USCIS did not
                   have a consistent method for identifying in SAMS which laptops
                   were assigned to contractors. For example, some USCIS property
                   custodians denoted the laptop as government-furnished equipment
                   by entering the contractor’s name in the “Steward” field.

                   According to the USCIS Personal Property Management
                   Instruction Handbook, USCIS IHB 119-002-01,

                            Equipment purchased by the government for use by a
                            contractor is normally received through the acquisition

       U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                          Page 3
                                     channels and maintained in their approved system of record
                                     or as an agreement asset in SAMS.

                            According to the USCIS Office of Information Technology (OIT)
                            End User Services Division Personal Property Handbook,
                            December 2010,

                                     Ensure all OIT employees are entered into Sunflower as
                                     users for accounting purposes.

                                     GFE [government-furnished equipment] at a contractor site
                                     shall be entered into SAMS in the “Agreement Module.”

                            Without accurate and reliable information, USCIS could not
                            always use SAMS data to alert specific users that their laptop
                            software was out of date. Specifically, laptop barcode data in
                            SAMS did not always match the barcode data in WSUS, the
                            system USCIS uses to provide Microsoft-related software updates
                            to laptops. For example, 2.79 percent of our random sample of
                            laptops had a WSUS computer name that did not match the
                            barcode, and 6.27 percent had nonstandard internal computer
                            names. 1

                            According to USCIS staff, the lack of consistency in data entry
                            was partly the result of the manual process for updating SAMS.
                            However, during our fieldwork, we were informed that USCIS had
                            begun to use hand-held barcode scanners to increase the accuracy
                            of the SAMS inventory.

                            Physical Security Controls for Laptops Need Improvement

                            The mobility of laptops increases the risk of theft, and thus raises
                            the risk of data disclosure; however, USCIS did not guard against
                            theft by providing locks and cables to enhance physical security.
                            Specifically, according to USCIS staff, locks and cables are
                            provided only if the laptop’s user requests these safeguards.

                            To prevent unauthorized individuals from removing laptops from
                            unsecured facilities, USCIS should implement stronger physical
                            security controls by issuing locking cables for its laptops.
                            According to Directive 4300A,




1
    See appendix C, Statistical Analysis of USCIS Laptops.

               U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                                   Page 4
                     When unattended, laptop computers and other mobile
                     computing devices shall be secured in locked offices,
                     secured with a locking cable, or in a locked cabinet, or desk.

    Recommendations
            We recommend that the USCIS Chief Information Officer (CIO)

            Recommendation #1: Ensure that laptop data are entered
            consistently into the USCIS property management system.

            Recommendation #2: Develop a consistent process to record
            when laptops are initially provided as government-furnished
            equipment.

            Recommendation #3: Provide appropriate locks and cables for
            laptops that may not be secured in locked offices, in a locked
            cabinet, or desk when unattended.

    Management Comments and OIG Analysis
            We obtained written comments on a draft of this report from the
            Director of USCIS. We have included a copy of the comments in
            their entirety at appendix B. The Director of USCIS concurred
            with all five recommendations.

            Recommendation #1

            USCIS concurs with this recommendation. Beginning in this fiscal
            year, when verifying their annual inventory, USCIS Accountable
            Property Officers must certify that all equipment is assigned to an
            end user and all end users have signed receipts for all issued
            property.

            OIG Analysis

            The actions being taken satisfy the intent of this recommendation.
            This recommendation is considered resolved, but will remain open
            until USCIS provides documentation to support that the planned
            corrective actions are completed.

            Recommendation #2

            USCIS concurs with this recommendation. USCIS will review
            agency policies and procedures governing the management of
            government-furnished equipment; ensure that all agency contracts

U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                   Page 5
                    include proper government-furnished equipment language; and
                    standardize the process for recording, maintaining, reporting, and
                    retrieving government-furnished equipment in accordance with
                    Federal and Department standards.

                    OIG Analysis

                    The actions being taken satisfy the intent of this recommendation.
                    This recommendation is considered resolved, but will remain open
                    until USCIS provides documentation to support that the planned
                    corrective actions are completed.

                    Recommendation #3

                    USCIS concurs with this recommendation. USCIS will update
                    current policies and instructions to specifically address laptop
                    security, including the use of a lock and cable system when
                    appropriate.

                    OIG Analysis

                    The actions being taken satisfy the intent of this recommendation.
                    This recommendation is considered resolved, but will remain open
                    until USCIS provides documentation to support that the planned
                    corrective actions are completed.


USCIS Needs To Improve Its Laptop Configuration Management
Process
            The USCIS configuration management process for providing software
            upgrades to its laptop computers needs improvement. Not all USCIS
            laptops had the latest encryption software, operating systems, or service
            packs. Furthermore, not all laptops received technical updates in a 30-day
            period. These deficiencies increased the risk that identified laptop
            vulnerabilities would not be resolved in a timely manner.

                    Encryption Software

                    The data on USCIS laptops were not always secured with the latest
                    encryption software. In our random sample of 287 laptops shown
                    in table 1, 8 percent were running older releases of the encryption
                    software, and 4.5 percent either did not have encryption software
                    installed or had inactive encryption software.



        U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                           Page 6
            Table 1: Encryption Software Installed on Randomly Selected
            Laptops

             Encryption Version          Number of            Sample
                                         Laptops              Percentage
             Laptops with older                23                  8.01%
             versions of
             encryption software
             Laptops with latest                149                51.92%
             version of encryption
             software
             Not active/None                     13                 4.53%
             Unknown*                           102                35.54%
             Total                              287                 100%
            *USCIS did not provide encryption software information for laptops in storage,
            those that had not been assigned to staff, and those that were excessed or
            planned to be excessed.

            According to USCIS staff, there were two situations where, by
            design, the standard USCIS encryption software was not active on
            the laptops: laptops used for classified processing and laptops used
            for training. USCIS staff noted that classified laptops do not use
            the standard encryption software, but rather the laptops used for
            classified processing conform to the rules of the classified system.

            When encryption software was running on training laptops, if a
            user rebooted, someone would need to be called to log in past
            encryption before the class could continue. According to USCIS
            staff, the training laptops do not need to be encrypted because they
            do not leave DHS facilities.

            According to Directive 4300A,

                     Information stored on any laptop computer or other mobile
                     computing device that may be used in a residence or on
                     travel shall use encryption.…

            Laptop computers that are not running the most recent encryption
            software might not be adequately protecting the security and
            privacy of USCIS data, potentially putting data confidentiality,
            integrity, and availability at risk.

            Operating Systems and Associated Service Packs

            Not all USCIS laptops were running the latest operating systems
            with the most up-to-date service packs. Table 2 indicates that

U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                   Page 7
            4 percent of the laptops in our random sample were not running the
            latest release of the operating system and service pack.

            Table 2: Operating Systems Installed on Randomly Selected
            Laptops

              Operating System and            Number of            Sample
              Service Pack                    Laptops              Percentage
              Older release                         12                  4.18%
              Latest release                       173                 60.28%
              Unknown*                             102                 35.54%
              Total                                287                  100%
            *USCIS did not provide operating system information for laptops in storage,
            those that had not yet been assigned to staff, or those that were either excessed
            or planned to be excessed.

            According to Directive 4300A,

                     Components shall manage systems to reduce vulnerabilities
                     through vulnerability testing and management, promptly
                     installing patches, and eliminating or disabling unnecessary
                     services.

            According to USCIS staff, when an unassigned laptop was
            assigned to a new user, USCIS provided that laptop with the latest
            approved operating system and service pack. However, USCIS
            was not adequately managing the automated software updates to
            ensure that the laptops in use were running the latest release of
            Microsoft Windows products. For example, USCIS used WSUS to
            provide Windows-related updates to its laptops, but did not use
            WSUS to upgrade operating systems or install associated service
            packs.

            Furthermore, not all laptops received WSUS monthly updates,
            even though USCIS policy requires these updates. According to
            the USCIS Rules of Behavior that all users sign when issued a
            laptop, USCIS staff are required to connect their USCIS laptop
            computers to the USCIS network at least every 30 days to receive
            patches and antivirus updates. Laptop computers without the latest
            operating systems and associated service packs are at increased
            risk of malware due to inherent and unpatched vulnerabilities
            associated with the older system software. However, WSUS
            reports showed that only 2,530 laptops had been attached to the
            network in the previous 30 days. During the same period, the
            USCIS property management system contained an inventory of
            6,659 laptops.

U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                    Page 8
    Recommendations
            We recommend that the USCIS CIO:

            Recommendation #4: Ensure that USCIS configuration
            management software and processes enable the updating of
            laptops’ operating systems and encryption software with the latest
            releases.

            Recommendation #5: Develop procedures to ensure that USCIS
            assigned laptops are connected to its network for system and
            software updates on a monthly basis.

    Management Comments and OIG Analysis
            We obtained written comments on a draft of this report from the
            Director of USCIS. We have included a copy of the comments in
            their entirety at appendix B. The Director of USCIS concurred
            with all five recommendations.

            Recommendation #4

            USCIS concurs with this recommendation. USCIS will update its
            configuration management policies, procedures, and processes.
            USCIS also will develop a process to update non-networking
            laptops manually. Additionally, USCIS will update its procedures
            for naming laptops and will ensure that laptops are updated with
            the new name when they are turned in for reuse.

            OIG Analysis

            The actions being taken satisfy the intent of this recommendation.
            This recommendation is considered resolved, but will remain open
            until USCIS provides documentation to support that the planned
            corrective actions are completed.

            Recommendation #5

            USCIS concurs with this recommendation. USCIS will develop a
            process to identify which laptops are configured to be connected to
            the network. Also, USCIS will ensure that these laptops
            automatically receive updates every month. For laptops not
            configured to be used on the network, USCIS will develop
            procedures to update those laptops manually. USCIS will also


U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                   Page 9
            increase its communications to USCIS personnel concerning their
            responsibilities for properly maintaining their laptops.

            OIG Analysis

            The actions being taken satisfy the intent of this recommendation.
            This recommendation is considered resolved, but will remain open
            until USCIS provides documentation to support that the planned
            corrective actions are completed.




U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                   Page 10
Appendix A
Purpose, Scope, and Methodology

                       The objective of our audit was to determine whether USCIS has
                       implemented an effective program to protect the security and
                       integrity of its laptop computers. Specifically, we—

                                Determined whether the current process that USCIS has in
                                place to maintain its inventory of laptops is adequate;

                                Determined whether USCIS’ current process of updating
                                laptop images and security patches is adequate;

                                Determined whether USCIS has a process to protect
                                personally identifiable information stored on laptops; and

                                Assessed whether USCIS follows appropriate procedures
                                and takes appropriate corrective actions to address
                                decommissioned, damaged, excessed, lost, or stolen
                                laptops.

                       Our audit focused on the requirements outlined in Directive
                       4300A. We also reviewed component-specific guidance, including
                       USCIS Personal Property Management Handbook, USCIS
                       Personal Property Physical Inventory Guidance, USCIS
                       Management Directive 144-001 Board of Survey, and the USCIS
                       Rules of Behavior for users of Federal Government information
                       technology resources.

                       We interviewed USCIS personnel, including property custodians,
                       information technology specialists, personal property managers,
                       and contractors. We also conducted a site visit of the contractor’s
                       New Jersey facility where USCIS laptops are received, configured,
                       and then shipped to staff. Additionally, we performed site visits at
                       two USCIS facilities in Washington, DC, to observe laptops at
                       those locations. We also conducted a laptop sample to verify host
                       names, operating systems, service packs, and encryption versions.

                       Our previous laptop security audits included onsite visits and the
                       technical scanning of selected laptops.2 However, our planning for
                       this audit emphasized minimizing our impact on USCIS while
                       expanding our scope to include a more representative sample of
                       laptops. To that end, we selected a random sample of laptops from
                       USCIS’ complete laptop inventory. We then requested that USCIS
                       staff provide screen prints from this sample showing each laptop’s


2
 Improved Administration Can Enhance Federal Emergency Management Agency Laptop Computer
Security (Redacted), OIG-07-50, June 2007.

           U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                              Page 11
Appendix A
Purpose, Scope, and Methodology

                     operating system information, computer name, and encryption
                     software.

                     This methodology was intended to minimize the impact on users,
                     but it had a greater impact on USCIS property custodians. For
                     example, rather than focusing on the laptops in a few facilities, we
                     requested information on laptops throughout USCIS’ worldwide
                     operations. This request required action from more property
                     custodians. Additionally, several property custodians had to
                     perform extra work, including tracking down the requested laptop
                     and providing support to produce the screen prints. We are very
                     appreciative of the work that USCIS staff performed to provide the
                     requested information for this effort.

                     We conducted this audit between September 2011 and
                     February 2012 pursuant to the Inspector General Act of 1978, as
                     amended, and according to generally accepted government
                     auditing standards. Those standards require that we plan and
                     perform the audit to obtain sufficient, appropriate evidence to
                     provide a reasonable basis for our findings and conclusions based
                     upon our audit objectives. We believe that the evidence obtained
                     provides a reasonable basis for our findings and conclusions based
                     upon our audit objectives. We gave briefings and presentations to
                     DHS staff concerning the results of our fieldwork and the
                     information summarized in this report.

                     We appreciate the efforts of USCIS management and staff to
                     provide the information and access necessary to accomplish this
                     review. The principal OIG points of contact for the audit are Frank
                     Deffer, Assistant Inspector General for Information Technology
                     Audits, (202) 254-4100, and Sharon Huiswoud, Director,
                     Information Systems Division, (202) 254-5451. Major OIG
                     contributors to the audit are identified in appendix D.




         U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                            Page 12
Appendix B
Management Comments to the Draft Report



                                                                             u.s. D~p. rtmtnl of lIom~l .od .xcurlly
                                                                             U.S. Citizenship and Immianllion Scmces
                                                                             Offi~ol'hf'
                                                                                       Dif'f'Ctor(MS 2000)
                                                                             Wuhi"BIon. OC 20529·2000
                                                                             U.S. Citizenship
                                                                             and Immigration
                                                                             Services
         AP1l 18   10~


         Memorandum
         TO:


         FROM:
                         Frank DefTer


                         Alejandro N. Mayorkasfh(\ ~
                         Director               ('S \
                                                  ~
                                                       r
                         Assistant Inspector Genera[, Info   tio   echno[ogy Audits




         SUBJECT:        U.S. Citizenship and Immigration Services (USCIS) Response to Office of
                         Inspector General (OIG) Draft Report OIG-I I-030: USC/S's Laptop Safeguards
                         Need Improvements

         USCIS appreciates the opportunity to review and comment on the subject report and generally
         agrees with the OrG summary ofthe issues identified in the feport.

         The Department of Homeland Security (DOS) - OIG recommends that the USCIS Chief
         Information Officer (CIO):

         Recommendation I: Ensure that laptop data are entered co nsistenUy into the USCIS
         property management system.

         USCIS response: uscrs concurs with thi s recommendation. The Office of Administration
         (ADMIN) identi fi ed this issue during the Fiscal Year 2011 (FYI I) inventory and implemented a
         policy change for the FY 12 inventory and beyond. Beginning this fiscal year, when verifying
         their annual inventory accuracy, Accountab le Property Officers must certify that:
         • All equipment.is assigned to an end user; and
         • All users have signed user receipts for all issued personal property.

         ADMIN will monitor compliance during annual inventory reconciliations and during site visits.
         All uscrs Directorates and Program Offices will fo llow the policies and guide lines stipulated in
         the USCIS Personal Property Managemenllnstmction Hmzdbook, USCIS IHB 119-002-01.

         Target completion date: September 3D, 20 12

         Recommendation 2: Develop a consistent process to record when laptops are initially
         provided as government-furnished equipment (GFE).

         USCIS response : USCIS concurs with this recommendation. The Office of Contracting,
         ADMIN, and Office of Information Technology (OrT) will work together to review agency
         policies and procedures governing the management of GFE and ensure that all agency contracts



                                                                                                   www.uscls.gov




         U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements


                                                     Page 13

Appendix B
Management Comments to the Draft Report


         USCIS Response to Draft Report 0IG-11 -030: USC/S's Laptop Safeguards Need Improvements
         Page 2

         include the proper GFE contract language as necessary. In addition, these offices will
         standardize the process for recording, maintaining, reporting, and retrieving GFE in accordance
         with Federal and Department standards.

         Target Completion Date: December 31,2012

         Reco mm end a tion 3: Provid e appropri ate locks a nd cables for lap tops tha t may not be
         secured in locked offi ces, in a locked cabinet, or d esk when unattended .

         USC] S r esponse: USC IS concurs with this recommendation. uscrs has established policies
         concerning the physical protection of laptops. USCIS Management Directive 123-001.1 ,
         TelelVork Program, Appendix A, Section VIn, paragraph G.3 requires employees to store
         sensitive personal property under lock and key with sufficient access control measures such as in
         a locked room, desk drawer, safe, or file cabinet to afford adequate protection against
         unauthorized access. USClS Fonn 0-1129, Telework Program Application and Agreement,
         requires employees to acknowledge this requirement in writing. Additionally, the USCIS Rules
         of Behavior require employees to protect equipment under their control and outlines
         requirements for safeguarding equipment when in airports, hotel rooms, and when leaving it in a
         car. These requirements must be acknowledged in writing.

         Each USCIS Directorate and Program Office uses their own standard supply procedures to allow
         their users to purchase locks and cables for their laptops (via Purchase Card or DHS Fonn 150 I).
         It is up to the individual user to detennine his or her need for extra physical security measures
         when using their laptop in unsecured facilities.

         ADMIN, OIT, and the Office of Human Capital and Training will update current policies and
         instructions to specifically address laptop security, including the use ofa lock and cable system
         where stronger security methods, as outlined above, cannot be met.

         Target Completion Date: September 30, 2012

         Recomm end a ti on 4 : E nsure th at USCIS co nfigu r ation ma n agement sortwa r e a nd processes
         enable th e upd atin g of la ptops' op er ating systems a nd encryption software with the latest
         releases.

         USCI S r esponse: USC IS concurs with this recommendation. on will update its configuration
         management policies, procedures, and processes to enhance accountability of laptop operating
         system and encryption software versioning. OIT has tools in place that automatically push
         updates to a laptop once it is connected to the network. For laptops that are used for non-
         networking purposes, OIT will develop a process to ensure that these laptops are updated
         manually frequently.

         OIT will update its procedures concerning DHS naming scheme to comply with DHS standards
         and ensure laptops are updated with the new naming scheme as they are turned in for reuse.




         U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements


                                                    Page 14

Appendix B
Management Comments to the Draft Report



         USClS Response to Draft Report 010-11-030: USC/S's Laptop Safeguard.s Need lmp/"Ovemenfs
         Page 3


         Additionally, OIT will update the USCIS Rules of Behavior to stipulate the software update
         requirements for both networked and non-networked laptops.

         Target Completion Date: April 30, 2013

         Recommendation 5: Develop procedure;o; to ensu re that users laptops are connected to its
         network for system and softwa rc updatcs on a monthly basis.

         USCIS response: USCIS concurs with this recommendation. OIT w ill develop a process to
         identify which laptops have been configured to receive automatic system updates when they are
         connected to the network and ensure that they are connected monthly. For laptops not
         confi gured to be used on the network, OTT will develop procedures to update the laptops
         manually. In addition, on will increase its communications to USCIS personnel on their roles
         and responsibilities and available resources to assist w ith properly maintaining their laptops.

         Target Completion Date; April 30, 20 13




         U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements


                                                    Page 15

Appendix C
Statistical Analysis of USCIS Laptops

                           Given a population size of 6,659 laptops, a 95 percent confidence
                           interval, a 5 percent sampling error, and a 50 percent population
                           proportion, a random selection sample would need to include 363
                           laptops. We used IDEA software to randomly select 363 laptops
                           from USCIS’ October 2011 inventory of 6,659 laptops. Laptops
                           selected were in the United States as well as in other countries.
                           Some laptops were classified, some were being used by contractors,
                           some were used for training purposes, and some were unassigned.
                           We received sample responses for 287 USCIS laptops. Although
                           the response did not include all 363 requested laptops, the 287
                           responses exceeded a lower but still statistically valid sample size
                           of 261 laptops. 3

                           Based on these responses from our random sample, we are able to
                           infer the following characteristics of the total USCIS laptop
                           population (see table 3).

                          Table 3: Characteristics of the USCIS Laptop Population
                                                   Random       Percentage Applied
                        Laptop                     Sample       to USCIS Population
                                                   Percentage   of 6,659 Laptops
                        WSUS computer name            2.79%              185
                        with wrong barcode
                        Nonstandard WSUS              6.27%              417
                        computer name
                        Wrong SAMS barcode            0.35%               23
                        Unassigned laptops           19.16%             1,276
                        Laptops with older            8.01%              533
                        versions of encryption
                        software
                        Encryption not active or      4.53%              301
                        not installed
                        Older release of operating    4.18%              278
                        system or service pack




3
  Given a population size of 6,659 laptops, a 90 percent confidence interval, a 5 percent sampling error, and
a 50 percent population proportion, a random sample would total 261 laptops.

             U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements


                                                  Page 16

Appendix D
Major Contributors to this Report

                      Sharon Huiswoud, Director
                      Kevin Burke, Supervisory Auditor
                      Pamela Chambliss-Williams, Senior Program Analyst
                      Charles Twitty, Senior Auditor
                      Matthew Worner, Senior Auditor
                      M. Faizul Islam, Economist/Statistician
                      Robert Durst, Referencer




          U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements

                                             Page 17
Appendix E
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretary
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Director of USCIS
                      USCIS Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          U.S. Citizenship and Immigration Services’ Laptop Safeguards Need Improvements


                                             Page 18

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
